                                                                                             1




                                                 Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review on the                       Date:    April 15, 2011
           Vulnerability Assessment of FAA's Operational Air
           Traffic Control System
           Report Number QC-2011-047

  From:    Louis C. King                                            Reply to
                                                                    Attn. of:   JA-20
           Acting Assistant Inspector General for Financial
            and Information Technology Audits


    To:    Federal Aviation Administrator


           This report summarizes the results of our information technology vulnerability
           assessment of the Federal Aviation Administration's (FAA's) operational Air Traffic
           Control (ATC) systems. This audit was requested by the now-Chairmen of the House
           Transportation and Infrastructure Committee and the Subcommittee on Aviation.

           FAA has 21 Air Route Traffic Control Centers (ARTCC) geographically dispersed across
           the United States. These Centers are the major communication hubs for flight plan
           routing and the systems that provide radar and communication services to aircraft
           operating above 18,000 feet. ATC systems communicate with one another via the same
           technology used for Internet communication. Although not all ATC systems can be
           accessed from the Internet, FAA has designed some support systems residing within its
           Mission Support/Administrative System Network (MSSN) with accessibility through the
           Internet.

           This audit assessed ATC systems and networks located at two FAA facilities within the
           continental United States. Clifton Gunderson LLP of Calverton, Maryland, completed
           the audit under contract to the Office of Inspector General (OIG). Clifton Gunderson's
           audit approach included developing and executing steps within OIG-approved Rules of
           Engagement (ROE). ROE establish guidelines that determine how selected security tests
           are conducted. OIG staff performed a quality control review of Clifton Gunderson's audit
                                                                                                     2


work to ensure that it complied with generally accepted government auditing standards.
Our review disclosed no instances in which Clifton Gunderson did not comply in all
material respects with applicable auditing standards. A detailed report was provided to
FAA but will not be released to the public due to the sensitivity of the information it
contains.

The objective of this audit was to determine whether operational ATC systems can be
accessed by unauthorized users from inside ATC facilities through FAA’s MSSN.
Clifton Gunderson concluded that they were unable to gain access to FAA's operational
ATC systems. However, they identified the following weaknesses at the ARTCCs:
1) information disclosure vulnerability; 2) inadequate system patch levels and
unsupported operating systems; 3) improper network configurations; and
4) communication system vulnerabilities.

1. Information Disclosure Vulnerability

Clifton Gunderson identified an information disclosure vulnerability during testing at one
ARTCC that allowed them to view, without using a password, hundreds of pages of
sensitive technical information describing network configuration, gateways and other
devices. This sensitive information may provide a rogue employee or contractor
sufficient understanding to identify and exploit weaknesses in the ATC security structure.

2. Patch Management Vulnerabilities on FAA's MSSN

Clifton Gunderson's review of MSSN revealed several critical and high risk Common
Vulnerabilities and Exposures (CVE) 1 related to missing or outdated system patches or
the running of operating systems no longer supported by their vendors. System patch
levels and operating systems that are not kept current not only may result in system
unavailability, but may also create a risk of exploitation of security holes for access to
ATC systems and data. Any of these systems could be compromised, and allow the
attacker to use the system to hide his or her identity in order to launch more attacks.




1
 The Mitre Corporation maintains a database of Common Vulnerabilities and Exposures (CVE) and shares it with the
world-wide information technology user community at http:cve.mitre.org/about/faqs.html.
                                                                                  3


3. System Configuration Vulnerabilities on FAA's MSSN

Clifton Gunderson's review of MSSN also revealed several critical and high risk CVEs
related to improper system configurations. An attacker could leverage these
vulnerabilities to gain total control of the systems. Furthermore, the systems could be
used to compromise other systems that depend on the same network management and
configuration services.

4. Communication System Weaknesses

Clifton Gunderson's review identified a communication system at one location that does
not require complex passwords and is no longer supported by the vendor. This lack of
sufficiently complex passwords could lead to an unauthorized manipulation of the
communication system, a total system shutdown, or falsification and impersonation of
facility communications.

Clifton Gunderson's recommendations to correct these and other control deficiencies
appear in this report's Exhibit A.

ACTIONS REQUIRED

Clifton Gunderson provided FAA a draft of the report on February 26, 2011, and received
FAA's written comments on April 12, 2011. FAA concurred with all audit findings and
recommendations, and has agreed to develop plans to implement corrective actions to
remediate all weaknesses. We request that FAA give us a written response that includes
specific action taken or planned for each recommendation and target dates for
completion.

In accordance with DOT Order 8000.1C, the corrective actions taken in response to
Clifton Gunderson's recommendations are subject to follow-up.

We appreciate the courtesies and cooperation of Department of Transportation's
representatives during this audit. If you have any questions concerning this report, please
call me at (202) 366-4350, or Nathan Custer, Program Director, at (202) 366-5540.

Attachments
                                            #
                                                                  4




cc:   Chief Information Officer, DOT
      Chief Operating Officer, ATO
      Assistant Administrator for Information Services/CIO, FAA
      Martin Gertel, M-1
      Anthony Williams, AAE-001
                                                                                   5


EXHIBIT A. RECOMMENDATIONS OF CLIFTON GUNDERSON, LLP,
INDEPENDENT AUDITOR

Clifton Gunderson LLP made the following recommendations during its
Vulnerability Assessment of FAA's Operational Air Traffic Control System. OIG
agrees that FAA management should implement these recommendations in order
to enhance FAA's ATC controls.

Information disclosure vulnerability
1.   Restrict access to this site by requiring users to enter ID’s and passwords,
     after demonstrating a valid business need or justification to access this data.

2.   Review the value of the information available on the site which should be
     otherwise protected from dissemination.

3.   Review and monitor individual accesses to this information to ensure
     documents accessible are appropriate based on the level of the user’s need to
     know.

4.   Monitor (for reasonableness) any distribution or download of any document
     which provides information otherwise protected from dissemination.

Patch management vulnerabilities on the FAA MSSN
5.   Apply software patch releases on a timely basis to protect against known
     vulnerabilities.

6.   Ensure the system’s Authorizing Official (AO) is promptly informed and a
     risk acceptance is received for any Critical or High vulnerabilities that are
     not promptly addressed. If the risk acceptance lapses, or the situation
     changes, the AO should renew the acceptance of the risk to ensure he/she is
     kept aware of the unmitigated vulnerabilities present on the system.

7.   Upgrade system software and supporting applications to a vendor acceptable
     supported version.
                                                                                6


System configuration vulnerabilities on MSSN
8.   We recommend FAA management disable unneeded network services
     where it is determined they are unnecessary or do not serve a valid business
     purpose.

Communications system weaknesses

9.   Upgrade the communications operating system to a supported version.
10. Require passwords meet complexity requirements in accordance with
    DOT/FAA policies.
